Additional Copies

The Office of Audit Policy and Oversight, Office of the Assistant Inspector
General for Auditing of the Department of Defense, prepared this report. To
obtain additional copies of this report, contact Mr. Wayne C. Berry at
(703) 604-8789 (DSN 664-8789) (wberry@dodig.osd.mil) or Ms. Diane H.
Stetler at (703) 604-8737 (DSN 664-8737) (dstetler@dodig.osd.mil).

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General of the Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.




Acronyms

CAM                    DCAA Manual 7640.1, “DCAA Contract Audit Manual”
DCAA                   Defense Contract Audit Agency
ESC                    Executive Steering Committee
FAO                    Field Audit Office
GAS                    Government Auditing Standards
ICAPS                  Internal Control Audit Planning Summary
MRD                    Memorandum for Regional Directors
ODC                    Other Direct Cost
PCIE                   President’s Council on Integrity and Efficiency
PWT                    Participative Work Team
RQA                    Regional Quality Assurance Division
SAP                    Standard Audit Program
         Office of the Inspector General of the Department of Defense
Report No. D-2002-6-007                                                   August 6, 2002
   (Project No. D2001OA-0113)

             Defense Contract Audit Agency Quality Assurance
                 Review of Internal Control System Audits

                                Executive Summary

Who Should Read This Report and Why? The Under Secretary of Defense
(Comptroller) and the Defense Contract Audit Agency (DCAA) Executive Steering
Committee should read this report. The report discusses the status of the DCAA
quality assurance program and the quality assurance review of internal control systems
audits.

Background. This is the second in a series of reports on the DCAA headquarters-led
quality assurance program. The DCAA internal quality control system is implemented
at all levels of the organization and is multifunctional, covering elements of
vulnerability assessment, internal control review, external audit followup, audit quality
review, and management improvement efforts. The “Government Auditing
Standards,” issued by the Comptroller General of the United States, requires that each
audit organization have an appropriate quality control system. For FY 2001, DCAA
completed 42,657 reviews, valued at $218.4 billion, with net savings of $3.2 billion.
DCAA incurred $383.2 million in total operating costs to provide the audit services.
DCAA selected internal control system audits, one of four categories of audits, as the
second category to be covered by the DCAA headquarters-led quality assurance
reviews.

Results. Since the program was announced in October 1998, DCAA continues to
refine its quality assurance program to include the fundamental elements of a mature
program. However, DCAA can further improve the program by institutionalizing the
followup process for all quality assurance reviews and by issuing clarifying guidance
for documenting reliance on data from computer-based systems (finding A).

The DCAA quality assurance review of internal control system audits identified
significant noncompliances related to standard audit programs, internal control testing
and risk assessment, supervision, and quality and accuracy of audit reports for which
DCAA had either implemented or initiated corrective action. However, additional
issues relating to the accuracy of audit reports and the associated internal control risk
assessments exist that need to be resolved through correction of inaccurate reports and
the related risk assessments and addition of a checklist question. To improve the
quality of audits, DCAA should actively oversee the scheduling and completion of
internal control system audits, correct any inaccurate outstanding reports, revise any
inaccurate Internal Control Audit Planning Summaries, and verify whether fieldwork
dates are included in applicable audit reports (finding B).

Management Comments and Oversight Response. DCAA generally concurred with
the recommendations with the exception of including a checklist question to verify
whether the dates of fieldwork are included in applicable audit reports. However,
regarding the correction of inaccurate audit reports, DCAA did not address the situation
where auditors issued full scope opinions but did not audit the entire systems. A
discussion of management comments is in the Findings section of the report, and the
complete text is in the Management Comments section. We request that DCAA
reconsider its position on one recommendation and provide additional comments on the
other recommendation in response to the final report.




                                         ii
Table of Contents

Executive Summary                                                            i


Background                                                                   1


Objective                                                                    2


Findings
     A. Status of Defense Contract Audit Agency Quality Assurance Program    3
     B. Quality Assurance Review of Internal Control System Audits           7

Appendixes
     A. Scope and Methodology
          Scope                                                             27
          Methodology                                                       28
          Prior Coverage                                                    29
     B. Structure of Defense Contract Audit Agency Quality Assurance
          Program and Quality Control System                                30
     C. Report Distribution                                                 37

Management Comments
     Defense Contract Audit Agency                                          39
Background
    This is the second in a series of reports on the Defense Contract Audit Agency
    (DCAA) headquarters-led quality assurance program. The “Government
    Auditing Standards” (GAS), issued by the Comptroller General of the United
    States, requires that each audit organization have an appropriate quality control
    system and undergo an independent external quality control review at least once
    every 3 years. The objective of an external quality control review is to
    determine whether the organization’s internal quality control system is properly
    implemented and operating effectively to provide reasonable assurance that
    established policies, procedures, and auditing standards are being followed.

    President’s Council on Integrity and Efficiency. The President’s Council on
    Integrity and Efficiency (PCIE) was established to identify, review, and discuss
    areas of weakness and vulnerability in Federal programs and operations; to
    develop plans for coordinated, Government-wide activities that address those
    issues; and to promote economy and efficiency in Federal programs and
    operations. As part of that mandate, the PCIE developed the “Guide for
    Conducting External Quality Control Reviews of the Audit Operations of
    Offices of Inspector General” (PCIE Guide), April 1997,1 as a tool to promote
    consistency in conducting quality control reviews in accordance with GAS. The
    PCIE Guide is advisory and is not intended to replace a reviewer’s professional
    judgment regarding the approach or scope of a review. The PCIE Guide
    includes a variety of checklists that organizations can use as tools when
    conducting quality control reviews.

    DCAA Organization and Functions. DoD Directive 5105.36, “Defense
    Contract Audit Agency,” June 9, 1965,2 establishes DCAA as a separate
    organization under the direction, authority, and control of the Under Secretary
    of Defense (Comptroller). The primary mission of DCAA is to perform
    contract audits for DoD. In addition, DCAA is responsible for providing
    accounting and financial advisory services regarding contracts and subcontracts
    to DoD Components that perform procurement and contract administration
    duties. Also, DCAA provides contract audit services for non-DoD Federal
    organizations on a reimbursable basis. During FY 2001, DCAA completed
    42,657 reviews, valued at $218.4 billion,3 with net savings of $3.2 billion.
    DCAA incurred $383.2 million in total operating costs to provide the audit
    services. DCAA audit guidance is contained in the DCAA Manual 7640.1,
    “DCAA Contract Audit Manual” (CAM).4 Specifically, CAM Section 2-101
    states that GAS is applicable to DCAA. DCAA ensures compliance with the
    applicable auditing standards throughout audit planning and performance
    activities by supplementing audit guidance in the CAM with standard audit

    1
    Although it does not affect this review, the PCIE Guide was revised as of January 4, 2002.
    2
    DoD Directive 5105.36 was last updated on February 28, 2002.
    3
    This amount represents dollars examined or reviewed by DCAA for forward pricing assignments,
    incurred cost audits, and special audits (for example, terminations, claims, and Government
    facility rentals).
    4
    DCAA Manual 7640.1 is updated every 6 months. As of August 2002, the version is July 2002.



                                               1
     programs and internal control matrices. Between CAM updates, DCAA
     headquarters notifies managers of new and revised audit guidance by issuing
     Memorandums for Regional Directors (MRDs) that are usually incorporated in
     the next CAM update. DCAA has a quality control system that is implemented
     at all levels of the organization. Appendix B describes the structure of the
     DCAA quality control system.

     Internal Control System Audits. DCAA selected internal control system
     audits as the second in the series of quality assurance reviews because of the
     significance of the audit results in relation to incurred cost audits, the third audit
     type that DCAA reviewed. DCAA identified 10 accounting and management
     systems5 that must be audited every 2 to 4 years if the system has a significant
     impact on Government contract costs being charged by major contractors.6 In
     addition, DCAA may perform internal control system audits at nonmajor
     contractors7 when the cognizant auditor determines that the audit effort to
     review a contractor’s internal control system is expected to be offset by a
     reduced effort on other related audits. DCAA performs internal control system
     audits to gather sufficient evidence to express an opinion on the adequacy of a
     contractor’s relevant accounting or management system and the related internal
     controls for compliance with applicable laws, regulations, and contract terms.
     Externally, DCAA provides results of an internal control system audit to
     contracting officials with an audit report. Internally, DCAA summarizes the
     results of an internal control system audit on an Internal Control Audit Planning
     Summary (ICAPS), a form that summarizes the auditor’s review of a
     contractor’s internal controls, opinion of adequacy, and assessment of control
     risk. DCAA integrates the information obtained during an internal control
     system audit into the planning and reporting of other related audits.


Objectives
     The objective for this oversight review was to review the status of the DCAA
     quality assurance program and to assess how DCAA performed the quality
     assurance review of internal control system audits. Subsequent oversight
     reviews will assess how DCAA performs quality assurance reviews of incurred
     cost audits and all other audits. We will make an overall determination as to
     whether the DCAA quality control system as a whole provided reasonable
     assurance that established policies, procedures, and applicable auditing standards
     were being followed after completing our external quality control review. See
     Appendix A for a discussion of the scope, methodology, and prior coverage.

     5
         The systems are billing, budget and planning, compensation, environment and overall accounting
         controls, estimating, general electronic data processing controls, indirect and other direct costs,
         labor, material management and accounting, and purchasing.
     6
         A major contractor is a contractor where DCAA has contractor costs of $80 million or more to
         audit in one fiscal year.
     7
         A nonmajor contractor is a contractor where DCAA has contractor costs of less than $80 million
         to audit in one fiscal year. The cognizant DCAA office can decide, based on the significance of
         an internal control system, whether to perform an internal control system review of a nonmajor
         contractor.



                                                     2
           A. Status of Defense Contract Audit
              Agency Quality Assurance Program
           Since the program was announced in October 1998, DCAA continues to
           refine its quality assurance program to include the fundamental elements
           of a mature program. DCAA has either completed or is in the process of
           taking corrective action to improve the quality assurance program.
           However, DCAA can further improve the ability of the program to
           provide a thorough evaluation of whether its audits are performed in
           compliance with auditing standards and DCAA policies and procedures
           by institutionalizing the followup process for all quality assurance
           reviews and by issuing clarifying guidance for documenting reliance on
           data from computer-based systems.


DCAA Quality Assurance Program Review Process
    The PCIE Guide describes the characteristics that an organization’s quality
    assurance program should integrate into any review of its quality control
    system. Inspector General of the Department of Defense (IG DoD) Report
    No. D-2002-6-001, “Defense Contract Audit Agency Quality Assurance
    Program,” December 6, 2001, discusses DCAA implementation of the
    characteristics outlined in the PCIE Guide. Appendix B includes general
    requirements for quality control systems and quality assurance reviews,
    describes the DCAA quality assurance program, and summarizes our review
    results and the actions that DCAA has implemented or initiated to improve its
    quality assurance program. However, DCAA still needs to improve followup
    procedures to ensure that the quality assurance program will operate effectively.

    Followup Procedures. The PCIE Guide recommends that procedures for
    resolution and followup of recommended corrective action be established. A
    good followup system should provide information on what improvements were
    made as a result of the work and whether the improvements achieved the desired
    result. Determining actions that were taken on recommendations requires active
    monitoring of the status of recommendations.

    DCAA has two separate followup processes for monitoring the status of actions
    taken as a result of issues found during headquarters-led quality assurance
    reviews. If the Executive Steering Committee (ESC) adopts a corrective action
    and assigns the action to a headquarters element, that component is responsible
    for followup. The ESC and the headquarters Quality Assurance Division are
    responsible for monitoring the followup. If the ESC adopts a corrective action
    and assigns it to the regions for implementation or followup, DCAA relies on
    the regional directors to independently ensure that corrective action is taken.
    The headquarters Quality Assurance Division performs no additional followup
    action until the next quality assurance review of the same type audit unless
    otherwise specifically directed by DCAA management.




                                        3
    In the management comments to a draft of IG DoD Report No. D-2002-6-001,
    DCAA agreed to institutionalize a followup process. Specifically, DCAA
    developed a new strategic plan objective of increasing the number of field audit
    offices (FAO)8 found to be at a “high level” of compliance with auditing
    policies and procedures to 70 percent during the FY 2002 review of forward
    pricing assignments. The milestone plan for that objective required the regions
    to implement their corrective action plans by May 2001 and to brief the ESC by
    December 2001 on the status of progress for previously established regional
    action plans. As of February 7, 2002, DCAA had only institutionalized the
    process for followup actions that resulted from review of forward pricing
    assignments but had not established the same process for other quality assurance
    reviews. However, at the June 2002 ESC meeting, the ESC rescinded the
    objective and, although the ESC is considering a replacement objective, one has
    yet to be proposed or adopted. DCAA should implement a standard followup
    process for all of the various headquarters-led internal quality assurance
    reviews.


Corrective Action Needed for Full Compliance With GAS
    During the DCAA quality assurance review of forward pricing assignments,
    DCAA identified an issue related to properly documenting reliance on data from
    computer-based systems at nonmajor contractors, but has not yet implemented
    corrective action. GAS 6.62 requires that
                    Auditors should obtain sufficient, competent, and relevant evidence
                    that computer-processed data are valid and reliable when those data
                    are significant to the auditors’ findings. This work is necessary
                    regardless of whether the data are provided to auditors or auditors
                    independently extract them . . . When computer-processed data are
                    used by the auditors, or included in the report, for background or
                    informational purposes, and are not significant to the auditors’
                    findings, citing the sources of the data and stating that they were not
                    verified will satisfy the reporting standards for accuracy and
                    completeness.

    DCAA found that auditors reviewing price proposals from nonmajor contractors
    did not obtain adequate evidence about reliability of the data from
    computer-based systems or did not document that they had obtained any
    evidence. In addition, DCAA policies and procedures did not specifically
    require the auditors to do so. In the December 1999 briefing to the ESC,
    DCAA proposed corrective action for determining if and how DCAA guidance
    should be modified to suit the type of audits they perform and to issue clarifying
    guidance, as appropriate, by April 14, 2000. The ESC approved the proposed
    corrective action and established action item E99-12-13. However, between
    December 2000 and March 2002, DCAA revised the milestone six times.


    8
        An FAO can be either a resident office or a branch office. A resident office is established at a
        contractor’s facility whenever the amount of audit work justifies the assignment of a permanent
        staff of auditors and support elements. A branch office is not located in a contractor’s facility
        and its auditors perform work at several contractor facilities.



                                                   4
    DCAA issued MRD 02-PQA-050, “Audit Guidance for Nonmajor Contractor
    Audits with Maximum Control Risk Assessments and Audit Evidence Highly
    Dependent on Contractor Computerized Information Systems,” on June 25,
    2002, after a draft of this report was issued. Continuing noncompliance with
    GAS was a deficiency that should have been corrected in a much more timely
    manner.


Summary
    The goal of a quality assurance program is to assess whether an organization
    carries out its work in accordance with GAS and established policies and
    procedures. In addition, a quality assurance program may include an objective
    to assess whether the work was carried out economically, efficiently, and
    effectively. The purpose of reviewing a quality assurance program is to
    determine whether the program is adequately designed to meet the objectives of
    quality assurance and whether the external reviewer can rely on the reports
    produced. Once the quality assurance program is further refined, issues
    discussed above are addressed, and planned corrective actions are implemented;
    DCAA should have reasonable assurance that its quality assurance program is
    operating effectively and that its internal quality control system is appropriately
    comprehensive and suitably designed to provide reasonable assurance that
    DCAA is complying with all of the applicable standards, policies, and
    procedures.


Recommendations, Management Comments, and Oversight
  Response
    A. We recommend that the Director, Defense Contract Audit Agency:

          1. Institutionalize the followup process for all of the quality
    assurance reviews.

    Management Comments. DCAA concurred in principle, stating that they
    would continue to brief the results of the internal quality assurance reviews to
    the ESC and to the IG DoD; the ESC would adopt appropriate corrective
    actions; and the DCAA Assistant Director for Policy and Plans, the regional
    directors, and the Field Detachment Director will implement and follow up on
    corrective actions. All of the requirements have been incorporated into the draft
    DCAA instruction on the policies and procedures for the DCAA quality
    assurance program. DCAA plans to issue the instruction by September 30,
    2002.




                                         5
In addition, DCAA will continue to use its strategic planning process to bring
about desired changes and needed improvements in its audit performance.
Desired changes and improvements include changes and improvements
identified by the DCAA quality assurance program and internal quality
assurance reviews.

Oversight Response. The DCAA comments meet the intent of the
recommendation. We believe that the DCAA instruction, once issued, will
resolve this recommendation.

     2. Issue clarifying guidance for documenting reliance on data from
computer-based systems and qualify the affected reports for audits at
nonmajor contractors until the guidance is implemented.

Management Comments. DCAA concurred, stating that they issued
MRD 02-PQA-050, “Audit Guidance for Nonmajor Contractor Audits with
Maximum Control Risk Assessments and Audit Evidence Highly Dependent on
Contractor Computerized Information Systems,” on June 25, 2002.




                                    6
               B. Quality Assurance Review of Internal
                  Control System Audits
               The DCAA developed and implemented a reasonable methodology for
               selecting FAOs and audit assignments to be reviewed during the quality
               assurance review of internal control system audits, the second category
               of audits reviewed as part of the overall review of the DCAA quality
               assurance program. The DCAA quality assurance review of internal
               control system audits identified significant noncompliances for which
               DCAA had either implemented or initiated corrective action.
               Specifically, DCAA identified issues related to standard audit programs
               (SAP), internal control testing and risk assessment, supervision, and
               quality and accuracy of audit reports. The issues that DCAA identified
               are important to ensure that quality audits are performed in accordance
               with GAS and that quality audit reports are issued. However, additional
               issues relating to the accuracy of audit reports and the associated internal
               control risk assessments exist that need to be resolved through correction
               of inaccurate reports and the related risk assessments and modification of
               various checklist questions. Timely implementation of corrective actions
               will ensure that the DCAA quality assurance program is effective.


Review of Internal Control System Audits
    DCAA initiated its second headquarters-led quality assurance review in
    November 1999. In FY 1999, DCAA completed 44,064 reviews, of which
    2,473 (5.6 percent) were internal control system audits. DCAA auditors
    expended a total of 264,401 hours to complete the 2,473 internal control system
    audits. DCAA developed a two-tier selection methodology for selecting which
    FAOs and audits to review. First, DCAA selected FAOs to visit based on the
    number of hours incurred on internal control system audits at major and
    nonmajor contractors. Once FAOs were selected, DCAA selected the audits to
    be reviewed.

    Selection of FAOs. DCAA selected and visited 18 FAOs, 3 per region. The
    18 FAOs represented 22.2 percent of the universe of 81 FAOs in existence as of
    January 2000. DCAA developed a reasonable methodology to be used to
    judgmentally select the 3 FAOs for review in each region, but excluded the
    18 FAOs previously reviewed under the quality assurance review of forward
    pricing assignments. For each region and Field Detachment,9 DCAA selected
    one FAO resident office10 with the highest number of hours expended on
    internal control system audits, one FAO with the highest number of hours



    9
     Field Detachment is responsible for the overall planning, management, and execution of
     worldwide DCAA contract audits of compartmented programs.
    10
        An FAO resident office is established at a contractor location when the amount of audit work
        justifies assignment of a permanent staff of auditors and support staff.



                                                  7
    expended on internal control system audits at major contractors (two FAOs if no
    resident office existed), and one FAO with the highest number of hours
    expended on internal control system audits at nonmajor contractors.

    Selection of Internal Control System Audits. DCAA selected and reviewed a
    total of 84 internal control system audits, 14 from each region. The 84 audits
    represented approximately 3.4 percent of the universe of 2,473 internal control
    system audits that all of the FAOs completed in FY 1999. DCAA developed a
    reasonable methodology that they used to judgmentally select the audits for
    review at each of the 18 FAOs. Specifically, DCAA selected;

        •   four audit assignments from the FAO resident office with the highest
            number of hours expended on internal control system audits,

        •   four audit assignments from the FAO with the highest number of hours
            expended on internal control system audits at major contractors, and

        •   six audit assignments from the FAO with the highest number of hours
            expended on audits at nonmajor contractors.

    For the FAOs where DCAA selected four audits for review, DCAA selected the
    most recently completed audits based on the date of the report. If more than
    one report had the same date, then DCAA selected the audit with the most hours
    expended. For the FAOs where DCAA selected six audits for review, DCAA
    selected the audits based on the type of system being reviewed and the highest
    number of expended hours. If the FAO did not have a sufficient number of
    audits with reports issued in FY 1999, then DCAA selected audits with reports
    issued in FY 1998 using the same criteria. Audits described as followups were
    not selected at any of the FAOs. In addition, DCAA developed a methodology
    for substituting audits at FAOs in case any of the originally selected audits
    proved to be inappropriate for review.


Results of DCAA Review
    DCAA identified significant, systemic noncompliances throughout DCAA
    during the quality assurance review of internal control system audits. DCAA
    presented that information, along with proposed corrective actions, to the ESC
    in September 2000. DCAA identified systemic, significant noncompliances in
    the following four areas:


        •   adequacy and proper use of SAPs;

        •   internal controls testing and risk assessments;

        •   supervision; and

        •   quality and accuracy of audit reports.




                                        8
    DCAA has initiated corrective actions to resolve the significant noncompliances
    and has completed all but two dealing with adequacy of SAPs. The corrective
    actions included evaluating current SAPs and developing new ones if needed;
    revising the CAM; developing an optional working paper checklist; directing
    regional and Field Detachment management to continue placing management
    emphasis on the areas that resulted in the significant noncompliances; and
    requiring the regional and Field Detachment directors to develop corrective
    action plans for resolving the systemic and significant noncompliances within
    the respective regions.


Standard Audit Programs
    Adequacy of SAPs. DCAA identified issues related to the adequacy of
    mandatory SAPs for internal control system audits of indirect and other direct
    cost (ODC) systems and accounting system surveys at nonmajor contractors.
    DCAA has initiated, but not completed, corrective action.

            Indirect and ODC System. DCAA found that auditors using the SAP,
    “Indirect/ODC System and Related Internal Controls,” did not adequately audit
    the portion of the system related to ODC because of deficiencies in the SAP.
    As a result, auditors inappropriately provided overall opinions on the adequacy
    of the indirect/ODC system at various contractors.

            Accounting System Survey. DCAA found that auditors used the limited
    audit steps in the “Preaward Surveys and Accounting System Surveys at
    Nonmajor Contractors (NMAPSYS)” SAP to support opinions on the entire
    system of internal controls for accounting systems or billing systems. However,
    the overall purpose of the accounting system survey SAP is to gather
    information for completing a preaward survey of a prospective contractor before
    contract award—not to conduct an internal control system audit of an accounting
    system or a billing system.

    The ESC tasked the DCAA Policy and Plans Directorate to evaluate the two
    SAPs and revise, as appropriate, so that adequate coverage of the internal
    control systems is ensured. In addition, the DCAA Policy and Plans Directorate
    was to evaluate the need for new post-award SAPs and shell reports for billing
    and accounting system surveys at nonmajor contractors. DCAA planned to
    complete both corrective actions by February 16, 2001. However, at the
    December 2000 ESC meeting, DCAA revised the milestone date to March 16,
    2001. At the March 2001 ESC meeting, DCAA revised the milestone date to
    June 2001. At the September 2001 ESC meeting, DCAA again revised the
    milestone date to December 2001. At the December 2001 ESC meeting, DCAA
    revised the milestone date to April 2002. At the March 2002 ESC meeting,
    DCAA further revised the milestone date to July 2002. Finally, by way of an
    e-mail of July 25, 2002, DCAA revised the milestone to October 2002.

    Timely implementation is needed to ensure that the auditors performing internal
    control system audits correct identified noncompliances before the next quality
    assurance review. The need for timely implementation is especially true for



                                        9
corrective actions that affect SAPs because DCAA auditors rely heavily on
SAPs as a quality control to ensure proper audit coverage and compliance with
GAS.

Use of Up-To-Date SAPs. DCAA identified significant noncompliances related
to auditors not using the most up-to-date SAPs and took corrective action.
DCAA found that auditors did not use the most up-to-date SAPs, eliminated key
steps required for a full-scope internal control system audit, or did not update
audit programs for changes in audit policy that occurred during the audit.
DCAA headquarters revised the CAM to include the following statement.
            Auditors should ensure they begin the audit with the most current
            version of the APPS [Automated Planning and Performance
            System] . . . A summary of changes made to the standard audit
            programs is issued with the quarterly APPS update. When changes to
            the approved audit program are necessary, the auditor should discuss
            the need to modify the audit program with the supervisor, document
            the results of the discussion in the interim supervisory guidance
            section of the working papers or on the audit program itself, as
            appropriate, and modify the audit program based on the interim
            discussions.

The ESC required regional and Field Detachment management to analyze their
respective regional results and develop corrective action plans to improve
processes related to using the most recent SAP. As part of the corrective
actions, the regions and Field Detachment distributed a listing of guidance
reminders to each FAO. In addition, the Regional Quality Assurance Divisions
(RQA) and the Field Detachment Quality Assurance Division either provided
training packages or presented training to each FAO.

Completion of SAP Steps. DCAA identified significant noncompliances
related to adequately completing steps in the SAPs. Specifically, DCAA found
that auditors were not:

     •   performing sufficient tests of controls;

     •   determining the sufficiency and reliability of contractor internal auditors
         before placing reliance on their work;11
     •   performing necessary audit work to support report conclusions; and

     •   documenting completion of audit steps on assessing the risk of fraud and
         illegal acts.

DCAA determined that continued regional and Field Detachment management
emphasis to ensure that auditors perform necessary audit work and that reports
accurately reflect the work performed would correct the identified
noncompliances. The regions and Field Detachment, as part of their corrective
actions, distributed guidance reminders to each FAO and either provided

11
 Placing reliance on the work of internal auditors was previously addressed in IG DoD Report
 No. APO 94-018, “Report on the Oversight Review of the Defense Contract Audit Agency
 Reliance on the Work of Others,” September 22, 1994.



                                          10
    training packages or presented training that included coverage of the significant
    noncompliances relating to adequately completing of SAP steps to each FAO.
    In addition, the guidance reminders that the Central and Western Regions
    distributed to the FAOs included a reference to IG DoD Handbook 7600.3,
    “Handbook on Fraud Indicators for Contract Auditors,” March 31, 1993. The
    guidance reminders that the other four regions distributed to the FAOs did not
    include any reference to the handbook.

    In addition to the guidance reminders and training packages, some regions
    provided information on how to properly document the risk assessment for fraud
    and illegal acts. Specifically, the Eastern Region issued RQA-1 Quality Alert
    No. 2001-01, “Working Paper Documentation of the Auditor’s Assessment of
    Fraud Risk Indicators,” March 30, 2001, which provides guidance on when to
    consider fraud risk indicators and where to document that consideration in the
    working papers. The quality alert included a listing of fraud risk indicators for
    incurred cost audits obtained from IG DoD Handbook 7600.3. The Central and
    Western Regions also distributed the fraud indicators. The Mid-Atlantic and
    Northeastern Regions and Field Detachment did not distribute any guidance.
    Although each region took action, inconsistent approaches of implementing
    corrective action for significant, systemic noncompliances can be inefficient and
    may not ensure that identified deficiencies are uniformly corrected throughout
    DCAA.


Internal Control Testing and Risk Assessment
    DCAA identified and took corrective action on significant, systemic
    noncompliances related to testing internal controls and assessing control risk.
    Specifically, DCAA identified issues related to testing internal controls, cycling
    internal control system audits, implementing the Internal Control Reporting
    System, assessing control risk at nonmajor contractors, and documenting
    assessment of control risk. DCAA headquarters revised the CAM and identified
    opportunities for improvement. In addition, DCAA directed the regions and
    Field Detachment to continue to place management emphasis on the areas. The
    regions and Field Detachment prepared corrective action plans and conducted
    training.

    Testing Internal Controls. DCAA found that auditors were not performing
    sufficient tests of controls at major contractors as the SAPs require. The issue
    was previously addressed in IG DoD Report No. PO-98-6-016, “Defense
    Contract Audit Agency Audits of Indirect Costs at Major Contractors,”
    August 6, 1998. Specifically, DCAA auditors did not always perform sufficient
    transaction testing during internal control system audits, thus increasing the
    possibility that weak internal controls could allow improper amounts charged on
    Government contracts. To resolve the issues addressed in IG DoD Report
    No. PO 98-6-016, DCAA revised CAM 5-108 in January 2000 to provide more
    specific guidance on testing internal controls. To resolve issues found during
    the internal quality assurance review of internal control system audits, DCAA
    revised CAM 5-105(b) in July 2001 to require that the auditor test a contractor’s
    key internal controls over selected transactions every 2 to 4 years regardless of



                                        11
whether the internal controls were tested in the prior comprehensive audit of a
contractor’s accounting or management system. CAM revisions need to be
accompanied by appropriate changes in the applicable SAPs and training to
properly emphasize the issues and avoid the possibility of a repeat finding
during the next 3-year cycle of quality assurance reviews.

Cycling Internal Control System Audits. DCAA found that FAOs had not
performed all of the 10 major internal control system audits within the last
4 years. In MRD 94-PFD-088, “Audit Guidance on Preparation of Initial
Internal Control Audit Planning Summary (ICAPS),” May 24, 1994, DCAA
established a new process for conducting internal control system reviews at
major contractors that required an initial full scope audit of the 10 internal
control systems at major contractors to be completed by the end of FY 1998.
DCAA incorporated the process into CAM 5-103 and included the requirement
that, “Each relevant accounting or management system that has a significant
impact on government contract costs be reviewed on a cyclical basis, (e.g.,
every 2 to 4 years) based on a documented risk assessment.” The process is
commonly known as cycling of internal control system audits.

During the quality assurance review of internal control system audits, DCAA
found that FAOs were not fully complying with the requirement to cycle audits
of internal control systems every 2 to 4 years. Specifically, DCAA found that
6 (50 percent) of the 12 FAOs having audit cognizance over major contractors
had not properly cycled their internal control system audits. The ESC directed
the regions and Field Detachment to develop corrective action plans that would
improve the process. FAO noncompliance with DCAA guidance on performing
initial full scope reviews of internal control systems was previously reported in
IG DoD Report No. PO-98-6-016. DCAA agreed with the report
recommendations and took corrective action by issuing MRD 98-PIC-048,
“Status of Initial Internal Control Audit Planning Summary (ICAPS) Review,”
March 31, 1998, which required FAOs to complete all initial full scope audits
by the end of FY 1998. Because reemphasizing the requirement to perform the
initial full scope review did not completely resolve the issue, the process
improvements that the regions and Field Detachment implement should include
active oversight to ensure proper cycling of internal control system audits by,
for example, requiring the use of the “Three Year Cycle” report generated by
the Internal Control Reporting System to plan the cyclical reviews of contractor
internal control systems.

Implementing the Internal Control Reporting System. The DCAA
headquarters Quality Assurance Division determined that the Internal Control
Reporting System12 could be improved by modifying the system to enable it to
retain ICAPS data from previous years, to subdivide the 10 major systems into
subsystems for audit purposes, to record approval by the supervisor and FAO
manager, and to prevent changing the assessment of control risk based on a




12
 The Internal Control Reporting System is database software that summarizes, by contractor, the
 adequacy of each of the 10 internal control systems and the control risk. In addition, the Internal
 Control Reporting System contains automated ICAPS for each internal control system.



                                           12
flash review.13 The DCAA headquarters Quality Assurance Division
coordinated the proposed improvements with the DCAA headquarters
Operations Directorate by way of an interoffice memorandum on April 2, 2001,
as required by ESC Action Item E00-9-13. DCAA headquarters tasked the
Eastern Region to modify the Internal Control Reporting System to incorporate
the proposed improvements. The Eastern Region anticipates releasing the
revised software for use throughout DCAA by October 2002.

Assessing Control Risk at Nonmajor Contractors. DCAA found that auditors
were performing full internal control system audits at nonmajor contractors but
were not preparing an ICAPS to document the assessment of control risk and the
potential impact on the scope of related audit effort. At that time, auditors were
only required to complete the “Survey of Contractor’s Organization, Accounting
System, and System of Internal Controls” for nonmajor contractors even if the
auditor performed a full scope internal control system audit. As a result,
DCAA revised the July 2001 version of the CAM to require that the auditor
complete an ICAPS when a full internal control system audit is performed at a
nonmajor contractor.

Documenting Assessment of Control Risk. DCAA identified a significant,
systemic noncompliance related to assessing control risk. Specifically, DCAA
found that auditors were assessing as low the control risk for system control
objectives not covered by the audit. CAM 3-305.2 requires auditors to assess
control risk (low, moderate, or high) for each relevant control objective when
preparing or updating an ICAPS. In addition, when the auditor updates the risk
assessment for any control objective, the auditor is required to include the
applicable report number and date. To resolve the noncompliance, DCAA
headquarters Quality Assurance Division only recommended continued regional
and Field Detachment management emphasis.

Regional and Field Detachment Corrective Action for Internal Control
Testing and Risk Assessment. To resolve the significant noncompliances
related to assessing control risk and documenting the assessment, each RQA and
Field Detachment developed training packages to resolve the systemic
noncompliances and provided training to the auditors. However, the content of
the training packages varied among regions.

     •   The Eastern Region training package contained a discussion of the
         significant, systemic noncompliances; the steps each auditor could take
         to prevent the noncompliances during future audits; CAM citations;
         examples of well-documented working papers; and practical exercises
         for documenting the assessment of control risk.

     •   The Central, Northeastern, and Western Regions training packages
         contained a discussion of the significant, systemic noncompliances and
         the steps each auditor could take to prevent the noncompliances during
         future audits and CAM citations.


13
 An auditor issues a flash report when an internal control deficiency is observed during other
 financial related audits.



                                           13
        •   The Mid-Atlantic Region training package included a discussion of the
            significant, systemic noncompliances as part of training on evidence and
            working papers and included CAM citations.

        •   The Field Detachment training package consisted of an overall general
            discussion of the significant, systemic noncompliances.

    DCAA needs to ensure that corrective actions the regions and Field Detachment
    implement consistently address the significant, systemic noncompliances and the
    steps each auditor should take to prevent the noncompliances during future
    audits.


Supervision
    DCAA identified significant, systemic noncompliances related to supervision of
    audits and determined that continued regional and Field Detachment
    management emphasis would correct the noncompliances. DCAA found that
    audit working paper packages were missing required documentation, audit
    working paper packages contained either no or little evidence of supervisory
    involvement during the audit, and the audit encountered problems that the
    quality control system or supervisor should have prevented. The ESC tasked
    the regions and Field Detachment to develop and implement corrective actions
    for the FAOs in their respective regions. The comprehensiveness of the
    corrective actions varied. Three RQAs provided training packages to all FAOs
    in their regions to be presented during either participative work team (PWT)
    meetings or at FAO staff conferences. The training packages outlined
    supervisory review requirements and included some applicable CAM citations.

    The other two RQAs and Field Detachment took somewhat similar but less
    comprehensive approaches. One RQA issued a memorandum providing specific
    guidance on supervision of audits and working paper documentation, including
    CAM citations, and also provided a training package to all FAOs. Field
    Detachment provided a presentation to all FAOs detailing the systemic
    noncompliances; however, the presentation provided minimal guidance on steps
    that supervisors should take to improve documentation of supervisory
    involvement. The second RQA was developing discussion material and planned
    to provide the materials to all FAOs during the first quarter of FY 2002;
    however, the discussion materials were not completed until March 2002, as a
    result of RQA staffing issues. If the RQAs had coordinated on corrective
    actions by, for example, jointly developing training packages or designating a
    lead RQA for developing discussion materials, the information would be
    consistent and available throughout the agency within the same time period. A
    coordinated approach may have helped the RQA with staffing issues to
    distribute the discussion materials to the FAOs in the region by the original
    milestone date. Actions to correct significant, systemic noncompliances related
    to auditing standards, such as supervision, should be implemented as quickly as
    possible. Otherwise, the same noncompliance could continue to surface during
    future internal quality assurance reviews.




                                       14
Reporting Requirements
    DCAA established an audit report quality review program in 1995 that included
    the use of the DCAA “Audit Report Quality Review Sheet for Audit Reports of
    All Types” (Audit Report Checklist). The regions and Field Detachment are
    required to review a sample of reports and submit the results to DCAA
    headquarters semiannually. DCAA summarizes the results in an MRD that is
    provided to the regional and Field Detachment directors. DCAA used the
    DCAA Checklist and the Audit Report Checklist to evaluate the quality of the
    84 reports reviewed during the quality assurance review of internal control
    system audits. DCAA found that auditors were:

        •   issuing adequate overall opinions on internal control systems when audit
            fieldwork disclosed significant deficiencies;

        •   rendering a full scope opinion when performing a limited scope audit;
            and,

        •   not reporting on the impact of control risk and status of system.

    In addition, we identified an issue related to reporting fieldwork dates in audit
    reports that could be addressed by adding a question to the Audit Report
    Checklist.

    Issuing Adequate Overall Opinions When Fieldwork Disclosed Significant
    Deficiencies. DCAA determined that auditors rated internal control systems as
    adequate even though the audit fieldwork disclosed significant deficiencies. The
    auditors believed that existing DCAA guidance allowed issuing an adequate
    opinion in cases where the contractor agreed to correct the system deficiencies.
    DCAA headquarters took corrective action by issuing MRD 01-PQA-009,
    “Audit Guidance on Revisions at CAM 10-408.2a, Internal Control Audits,
    Addressing Audit Opinions When Significant System Deficiencies are Found,”
    January 31, 2001. The revised guidance, incorporated into the January 2001
    version of the CAM, requires that:
               The audit opinion rendered on a contractor's system of internal
               control must now be either inadequate or inadequate in part,
               whenever both conditions below exist:

               • The auditor finds one or more significant deficiencies in a
                  contractor's system of internal control, and

               • At least one of the deficiencies has not been corrected as of the date
                 of report issuance.

               When significant deficiencies are found and the contractor has
               proposed or is in the process of taking appropriate corrective actions,
               the actions should be described in the Results of Audit report section.
               The existence, however, of a corrective action plan will not make an
               inadequate system reliable. Therefore, the auditor should not report a
               contractor’s system as “adequate” based on the contractor’s corrective
               action plan. Before opining that the system is adequate, the auditor
               must first verify the contractor’s implementation of the action plan



                                             15
             correcting the deficiencies. A follow-up review should be performed
             as soon as possible to ensure the contractor’s plan has been
             implemented.

The CAM revision adequately addressed the identified issue for audit reports
issued after January 2001. However, DCAA did not require the auditors to
verify that contractors corrected deficiencies for internal control systems that
DCAA previously reported as adequate nor did DCAA require auditors to
correct any outstanding reports that inaccurately stated that an internal control
system was adequate. Therefore, contracting officials and DCAA auditors at
other FAOs may mistakenly rely on inaccurate audit reports. Inaccurate reports
need to be corrected and reissued. In addition, DCAA did not require the
auditors to revise risk assessments on the ICAPS or in the Internal Control
Reporting System or even to simply identify the contractor years14 that could
have been potentially affected by the system deficiencies. Corrections to the
ICAPS and the Internal Control Reporting System are necessary to ensure that
auditors who plan future related audits have accurate information on the
adequacy of contractor internal control systems.

Rendering a Full Scope Opinion When Performing a Limited Scope Audit.
DCAA found that auditors issued full scope opinions on entire internal control
systems without auditing the entire system. For example, at one FAO that we
retested, we identified three assignments where this condition existed.

        Two Billing System Reports. DCAA identified two assignments where
the FAO issued audit reports that rendered full scope opinions on two
contractors’ billing systems when the auditors performed only limited scope
reviews. The DCAA reviewers determined that the two reports did not
accurately describe the limited scope of the work performed and concluded that
one of the reports should not have been issued at all.

        One Accounting System Report. The FAO issued a report on an
accounting system that rendered a full scope opinion when, again, the auditors
performed only a limited scope review. However, the DCAA reviewers did not
conclude that the report was inaccurate even though the circumstances were
similar to the billing system reports.

The DCAA reviewers determined that no adverse effects had occurred by
issuing the three reports because DCAA auditors did not rely on the results
when planning or performing related DCAA audits. In addition, the recipients
of the reports had not requested that the audits be performed, and DCAA
believed that the recipients did not rely on the inaccurate information.
However, DCAA has no control over how individuals outside the agency use
audit reports once they are issued. The DCAA proposed corrective action of
renewed regional and Field Detachment management emphasis on the CAM
reporting requirements. Although the DCAA corrective action of evaluating the
need for new post-award SAPs and shell reports for billing and accounting


14
 A contractor year is a contractor fiscal year. The ICAPS should identify each contractor fiscal
 year that is affected by a deficiency in an internal control system, which may have a significant
 impact on the pricing, administration, or settlement of Government contracts.



                                           16
system surveys at nonmajor contractors discussed above should also resolve the
problems encountered by this FAO, the DCAA evaluation will not correct an
inaccurate report.

An audit report is the sole representation to auditee management and other
interested parties of an audit organization’s work. Therefore, at the very least,
an audit report should be factually accurate, otherwise report recipients will
come to discount information in the audit reports and question the reliability of
work performed by the audit organization. Without the reader’s trust, the
usefulness of audit reports and the effectiveness of an audit organization could
be negatively impacted. DCAA audit reports must comply with the GAS 7.5
requirement to be complete and accurate. Specifically, GAS 7.56 requires that:
           Reported evidence should demonstrate the correctness and
           reasonableness of the matters reported. Correct portrayal means
           describing accurately the audit scope and methodology, and
           presenting findings and conclusions in a manner consistent with the
           scope of audit work.

Therefore, regardless of why the audit reports were issued or how they were
used, DCAA should ensure that the reports accurately represent the scope of the
audit and all other pertinent factual information. Once DCAA determines that
an audit report was issued with an inaccurate overall opinion on an internal
control system, DCAA should issue a corrected report. A corrected report is
also important to DCAA because DCAA uses internal control system audit
reports as a basis for completing risk assessments for individual audits and for
planning future related audits. An incorrect audit report with a less than
accurate system opinion could compromise the DCAA planning process.

Reporting on Impact of Control Risk and Status of System. DCAA found
that auditors did not report the impact that control risk will have on the extent of
audit effort on related audits and did not provide background and status of the
internal control system being reviewed. The DCAA proposed corrective action
of renewed regional and Field Detachment management emphasis on the CAM
reporting requirements.

Reporting Fieldwork Dates in Audit Reports. During our oversight review,
we found that DCAA does not always include the dates of fieldwork in its audit
reports. CAM 10-407 requires that the scope section of DCAA audit reports
include the period of performance of the audit fieldwork. In addition, the
standard report shells that DCAA distributed by way of the Automated Planning
and Performance System included a standard sentence that prompts auditors to
insert the dates of fieldwork. Our review of the 20 internal control system audit
reports revealed that only 5 (25 percent) reports included the dates for
fieldwork. In one instance, a report issued in September 1999 did not indicate
when fieldwork was performed. Our oversight review and the DCAA quality
assurance review of the working papers disclosed that the auditors performed
fieldwork in 1997 but did not update the fieldwork before issuing the report.
Issuing the report without updating the fieldwork and without disclosing the
dates of fieldwork did not meet the GAS requirement for accuracy. The
accuracy and usefulness of DCAA reports would be improved by including a
question on the Audit Report Checklist to verify whether the dates of fieldwork
were included in the scope section of a report as required by CAM.


                                      17
    Relying on Meeting Strategic Plan Objective as Viable Corrective Action.
    DCAA determined that, other than the modification to CAM 10-408.2a and
    renewed regional and Field Detachment management emphasis, they did not
    need to propose other corrective action to reduce future occurrences of reporting
    noncompliances because the DCAA Strategic Plan, April 2001, requires the
    regions and the FAOs to meet the strategic objective of, “By calendar year
    1999, 2000, and 2001, improve audit report quality by increasing ‘zero error’
    audit reports to 75%, 85%, and 95% respectively.” For calendar year 1999,
    DCAA determined that the agency-wide “zero error” rate was 73.4 percent and
    for calendar year 2000 it was 80.6 percent. However, for the 84 internal
    control system audit reports reviewed, DCAA found that only 25 (29.7 percent)
    reports had zero errors. In addition, DCAA concluded that 6 (7.1 percent) of
    the 84 reports should not have been issued. For example, at one FAO the
    branch manager conducted a post-issuance review of an audit report using the
    Audit Report Checklist and found no deficiencies. However, the DCAA quality
    assurance reviewer evaluated the same report using the Audit Report Checklist,
    found five deficiencies, and determined that the report should not have been
    issued. We do not believe that establishment of a strategic plan objective and
    the current audit report quality review program, as implemented, will correct
    the noncompliances related to the factual accuracy or completeness of audit
    reports. In addition, the significant differences in the results reported by the
    FAOs and the results reported by the DCAA quality assurance reviewer raise
    questions about the appropriateness of the strategic plan goal as an effective
    corrective action. DCAA is inappropriately relying on the audit report quality
    review program and the requirement to meet a strategic plan objective as viable
    corrective actions to resolve significant, systemic deficiencies in audit reports.


Working Paper Documentation
    Working papers are the principle support for the audit report, aid auditors in
    conducting and supervising audits, and allow others to review the quality of
    audits. Working papers should contain sufficient information to enable an
    experienced auditor having no previous connection with the audit to ascertain
    what evidence supports the auditor’s significant conclusions and judgments and
    whether the evidence is sufficient, competent, and relevant. In addition,
    working papers allow for the review of audit quality by providing the reviewer
    with written documentation of the evidence supporting significant conclusions
    and judgments. DCAA identified issues related to working paper documentation
    during the DCAA quality assurance review of forward pricing assignments that
    we addressed in IG DoD Report No. D-2002-6-001. DCAA developed a
    working paper checklist as part of the corrective actions resulting from the
    quality assurance review.

    Implementation of Working Paper Checklist. DCAA developed a checklist
    for the review of working papers but made its use optional. Representatives
    from the DCAA headquarters Quality Assurance Division, the RQAs, and the
    Field Detachment Quality Assurance Division jointly developed the checklist to
    help achieve the DCAA Strategic Plan objective, “By FY 2002, increase the
    number of FAOs found to be at a ‘high level’ of compliance in DCAA’s PCIE



                                        18
reviews to 70% in the forward pricing audit area.” The working paper
checklist, developed and tested over a 4-month period, was issued with the
following guidance:
             The checklist can be used for the purposes of auditor self-assessment,
             a peer review, or a supervisory review of the audit working papers.
             The checklist questions have been assigned priorities to assist a region
             that may wish to further reduce the number of checklist questions. A
             “Priority 1” question relates to a significant GAGAS compliance
             issue, or to a past significant noncompliant practice cited in the
             FY 1999 or FY 2000 PCIE-based QA reviews. “Priority 2”
             questions also relate to GAGAS compliance and are covered by
             DCAA’s adapted PCIE-based checklist, but the PCIE-based reviews
             to date have not disclosed significant noncompliances related to the
             questions. “Priority 3” questions are not directly associated with
             either the adapted PCIE-based checklist questions or the GAGAS.

The DCAA headquarters Quality Assurance Division will maintain the checklist
and issue periodic updates through the DCAA headquarters Policy and Plans
Directorate. DCAA permitted the regional and Field Detachment directors to
determine whether and how the working paper checklist should be used. Each
director implemented use of the checklist somewhat differently.

        Central Region Implementation. The director recommended that the
checklist be used to document regional audit manager and FAO manager
post-issuance reviews of audit working papers required by regional audit
manager and FAO quality control programs. In addition, the checklist should
be distributed to all of the auditors for use as a guide in preparing individual
audit working papers and compiling final audit working paper packages.
However, managers cannot require the completion of the checklist by auditors
or peer reviewers.15
        Eastern Region Implementation. The director recommended that the
checklist be adopted by all FAOs in place of checklists being used. Specifically,
FAOs will be required to use the checklist for all peer and post reviews for all
mandatory assignments16 completed after October 1, 2001, that are identified in
Eastern Regional Instruction 7640.2, “Eastern Region Management
Accountability and Control Program,” October 1, 2001. Using the working
paper checklist does not preclude the FAOs or PWTs from incorporating
additional questions that they believe are necessary to check for prior systemic
issues. In addition, auditors are encouraged to use the checklist as a
self-assessment tool on their own individual audits. Also, the director provided
optional supplemental checklists for defective pricing, nonmajor contractor
incurred cost, internal controls, and data accuracy. The supplemental checklists
contain specific questions not covered by the general checklist and could be used
in their current format or modified by the FAOs as necessary. However, FAOs
are not required to report checklist results to DCAA headquarters or the Eastern
Region.


15
  Auditors in the Central Region are unionized.
16
 Mandatory assignments include but are not limited to forward pricing rate agreements, incurred
 cost audits, internal control system audits, and terminations.



                                           19
        Field Detachment Implementation. The director is implementing the
checklist on a test basis for post-issuance review of audit reports. Specifically,
the FAO manager will apply the checklist to the working papers for the same
five reports selected for review under the audit report quality review program
and forward the results to the respective audit manager and the Field
Detachment Quality Assurance Division. The Field Detachment Quality
Assurance Division will assess the results and establish a permanent
implementation policy. In addition, the checklist may be distributed to the audit
staff for auditors to use as a self-assessment tool, for PWTs to assess progress,
for supervisors to provide feedback to auditors, and for the FAO to train new
auditors.
        Mid-Atlantic Region Implementation. The director recommended that
the checklist be used for an auditor self-assessment, a peer review, or a
supervisory (post) review of the audit working papers. In addition, FAOs
should discontinue use of the Mid-Atlantic Region-specific checklists.
Implementation of the new checklist should be consistent with the PWTs, as
defined, and each PWT should define how and under what circumstances
completion of the checklist for auditor self-assessment is required. However, all
of the questions on the checklist are to be completed. The RQA will accumulate
supervisory post review data for the next two semi-annual reporting periods to
determine whether any questions can be eliminated.

        Northeastern Region Implementation. The director is requiring that
managers and supervisors who perform working paper reviews use the checklist
as a tool to ensure compliance with GAS and DCAA policy. FAOs are required
to develop control procedures for checklist use and to complete the checklist for
the same completed assignments tested in the audit report quality review
program. In addition, the FAO is required to maintain the checklist results and
forward the results to the RQA. Also, the FAO is required to perform an
analysis of the identified noncompliances, develop appropriate corrective
actions, and discuss identified noncompliances at PWT meetings. The director
recommended that working paper noncompliances be documented, corrected,
and discussed with the assigned auditor as well as at PWT meetings. In
FY 2002, the RQA plans to conduct field visits to assess the implementation and
effectiveness of the checklist. In addition to mandatory use for review of
working papers after a report is issued, auditors can use the checklist voluntarily
as a self-assessment tool and FAO managers, at their discretion, may require
supervisors to complete the checklist as part of the normal GAS documentation
of supervisory review prior to report issuance. However, the director did not
approve the checklist for use as part of the peer review process until the impact
of its implementation can be coordinated with the bargaining unit.17

        Western Region Implementation. The director recommended that the
checklist be used to document regional audit manager and FAO manager post
audit report issuance reviews of working papers that regional audit managers
and FAO quality control programs require. In addition, the checklist should be
distributed to each auditor as a guide for preparing working papers and
compiling final audit working paper packages. However, the director stated that

17
     Auditors in the Northeastern Region are unionized.



                                             20
   those managers should not require auditors, supervisors, or peer reviewers to
   complete checklists on every audit. Further, the director specifically stated that
   regional management did not intend to accumulate or track any statistics from
   the use of the checklist.

   Survey on Use of Working Paper Checklist. On November 1, 2001, DCAA
   issued MRD 01-PQA-082, “Working Paper Quality Processes Survey,”
   requesting that each FAO complete a survey designed to identify and assess the
   working paper quality processes in place at the FAO and to identify best
   practices. DCAA summarized the results and presented them at the
   December 2001 ESC meeting. For peer reviews of reports, DCAA found that
   each regional audit manager, FAO manager, or supervisor could determine
   whether and how to use the working paper checklist or alternative checklist. Of
   the 78 FAOs existing in November 2001, 27 (34.6 percent) FAOs did not have
   written FAO-wide policies requiring peer reviews and 16 (20.5 percent) other
   FAOs were not performing peer reviews. For post-issuance reviews of reports,
   DCAA found that each region developed different guidance for using either the
   working paper checklist or an alternative checklist. Of the 78 FAOs,
   6 (7.7 percent) FAOs did not require the post-issuance review of reports and
   6 (7.7 percent) other FAOs required use of a checklist. However, those
   requirements were not in writing.

   Effectiveness of the Working Paper Checklist as a Corrective Action. The
   working paper checklist should be a useful tool for the FAO manager, regional
   or Field Detachment audit manager, or RQA to identify noncompliances in the
   working papers after a report has been issued. However, the working paper
   checklist would be more beneficial if the FAO staff used the working paper
   checklist before a report is issued to ensure that any noncompliances are
   resolved and potential impacts on reports are minimized. In addition, obtaining
   checklist results from the FAOs in a region could provide regional and Field
   Detachment management with substantial information on systemic issues that
   need to be addressed consistently throughout the region or Field Detachment
   rather than solely on an individual FAO basis. However, expending resources
   to develop a working paper checklist but making its use optional, permitting the
   deletion of questions, and not requiring its use as part of the supervisory and
   peer review processes, is not an efficient use of DCAA resources. In addition,
   relying on use of the working paper checklist as corrective action in future
   DCAA quality assurance reviews, such as the review of incurred cost audits,
   will not resolve the noncompliances related to working paper documentation and
   help achieve the strategic plan objective because it is optional, can be modified
   at the FAO level, and is not part of the quality control system.


Summary
   DCAA did a credible job identifying several significant, systemic
   noncompliances that required timely corrective action. Timely implementation
   of corrective actions should ensure that the DCAA quality assurance program is
   effective. However, timely implementation of corrective action may not have
   the desired effect if the corrective action does not fully address the root cause of



                                        21
    the identified noncompliance. In the briefing charts DCAA presented to the
    ESC, DCAA recommended renewed regional and Field Detachment
    management emphasis and attention as “proposed fixes” for many of the
    significant, systemic noncompliances. Specifically, each region and Field
    Detachment was independently responsible for analyzing the results applicable
    to their respective region and developing corrective action plans. Essentially,
    DCAA relied on the regions and Field Detachment to propose and implement
    region-specific corrective actions that address DCAA-wide significant, systemic
    noncompliances. Such a decentralized approach to implementing corrective
    action may not resolve significant, systemic noncompliances because of the
    inconsistencies among the regions and Field Detachment in interpreting the
    nature and extent of the noncompliances and in determining what the best
    approach is for resolving the noncompliances.

    In addition, the synergies that could result in consistent implementation of
    corrective action throughout DCAA will not happen if the regions and Field
    Detachment do not collaborate on developing and implementing corrective
    action. Continued decentralization of development and implementation of
    corrective actions may result in best practices that one region developed not
    being disclosed to the rest of DCAA. Proper implementation of corrective
    actions is needed to reduce the possibility that repeat findings or issues will
    occur during future internal quality assurance reviews or oversight reviews.
    Continued attempts to correct repeat findings because of ineffective corrective
    actions are inefficient use of agency resources. In addition, repeat findings and
    issues can signal significant weaknesses in an agency’s internal quality control
    system.


Management Comments on the Finding and Oversight
 Response
    Management Comments. DCAA stated that the IG DoD had somewhat
    overstated the findings of the FY 2000 quality assurance review by including the
    statement, “DCAA found that 6 (50 percent) of the 12 FAOs having audit
    cognizance over major contractors had not properly cycled their internal control
    system audits,” in the draft report. Specifically, the DCAA reviewers found
    that only 19 of the 220 required internal control system audits for which the
    12 FAOs were responsible for performing every 2 to 4 years were not current.
    Also, DCAA determined that some of the 19 audits were not clear
    noncompliances with existing policy on cycling internal control system audits
    because they raised new policy issues.

    Oversight Response. Regarding DCAA concerns that the IG DoD draft report
    overstated the findings of the FY 2000 quality assurance review on this issue,
    the draft report merely reiterated information included in briefing charts
    presented to the ESC. Because DCAA considers the briefing charts to be the
    final report on the quality assurance review of internal control system audits, we
    considered the findings as expressed in the briefing charts to be the best
    representation of the DCAA review results. The briefing charts state, “At the
    time of our field visit, had the FAO performed all 10 major internal control



                                        22
    system audits within the past four years? Of the 12 major contractor FAOs
    visited, 6 were out of cycle.” DCAA did not include any other information in
    the briefing charts on the finding. Therefore, we were only able to restate the
    DCAA finding that was presented to the ESC.


Recommendations, Management Comments, and Oversight
  Response
    B. We recommend that the Director, Defense Contract Audit Agency:

            1. Require the regions and Field Detachment to actively oversee the
    scheduling and completion of internal control system audits to ensure that
    field audit offices have properly implemented the Defense Contract Audit
    Agency Manual 7640.1, “DCAA Contract Audit Manual,” requirement to
    complete such audits every 2 to 4 years.

    Management Comments. DCAA concurred in principle, stating that over the
    past 5 years, DCAA has stressed the need for timely completion of internal
    control system audits at major contractors. In March 1998, DCAA
    re-emphasized the requirement to complete the internal control systems audits at
    major contractors every 2 to 4 years. In addition, as part of the quality
    assurance review of internal control system audits, DCAA completed a
    comprehensive review that followed up on the March 1998 guidance at
    12 FAOs. As a result of the review, the ESC systematically tasked the regional
    directors to perform additional followup work at the FAOs with cited
    noncompliances. In addition, DCAA plans to conduct more followup work
    during the second 3-year cycle of quality assurance reviews. DCAA stated that
    the record outlined above demonstrates that DCAA is already actively
    overseeing the scheduling and completion of internal control system audits.
    However, DCAA is agreeable to including a clear reminder of the need to cycle
    internal control system audits in the MRD that will be issued to address
    Recommendations B.2. and B.3. The MRD will be issued by September 30,
    2002.

    Oversight Response. We accept the proposed corrective action as meeting the
    intent of the recommendation. However, the MRD must remind regional
    management of the need to actively oversee completion of internal control
    system audits. DCAA has identified the headquarters-led quality assurance
    reviews and regional followup reviews as part of the oversight process for
    properly cycling internal control system audits, the reviews are after-the-fact
    monitoring. DCAA management needs to be actively involved in the cycling
    process to ensure that it is properly implemented. Therefore, DCAA
    management should verify that internal control system audits are being included
    in the FAO operating plans (current fiscal year), future plans (next fiscal year),
    and out-year projections (next 3 fiscal years). The FAOs develop the plans and
    submit them to the regions for approval. The regional audit managers should
    ensure that the plans include the required internal control system audits and that
    the FAOs complete the audits within the 2 to 4 year time frame. DCAA




                                        23
management could use the “Three Year Cycle” report generated by the Internal
Control Reporting System to properly plan the cyclical reviews of contractor
internal control systems.

       2. Correct any outstanding report that inaccurately states that an
internal control system was adequate.

Management Comments. DCAA concurred, stating that the recommendation
refers to those situations where an auditor may have found one or more system
deficiencies, but, rated an internal control system as adequate based on the
reported explanation that the contractor was pursuing an adequate plan to correct
the reported deficiencies. DCAA issued revised audit guidance in January 2001
covering such situations that require the auditor to rate a system as inadequate
until a followup audit shows that contractor corrective action was completed and
effective. DCAA maintains that the probability is low that contractors have not
yet satisfactorily corrected system deficiencies auditors identified that rated a
system as adequate pending correction of a deficiency. Nevertheless, any
occurrence of such a situation is unacceptable to DCAA. DCAA plans to issue
an MRD by September 30, 2002, directing its FAOs to review their internal
control system audits and audit reports covering open contractor fiscal years to
ensure that system deficiencies are appropriately reported in accordance with
current DCAA policy.

Oversight Response. The DCAA comments meet the intent of the
recommendation related to issuing adequate overall opinions on internal control
systems when audit fieldwork disclosed significant deficiencies that the
contractor provided a corrective action plan. However, the DCAA comments
do not address the situations where the auditor issued full scope opinions on
entire internal control systems without auditing the entire system. We request
that DCAA address this issue in comments to the final report.

        3. Direct the field audit offices to revise the Internal Control Audit
Planning Summaries prepared based on inaccurate reports to accurately
reflect audit risk for each affected year.

Management Comments. DCAA concurred, stating that the probability is low
that contractors have not yet satisfactorily corrected the system deficiencies
identified during audits that rated a system as adequate pending correction.
Consequently, because auditors prepare ICAPS based on the results of internal
control system audits, DCAA believed that the probability is low that
outstanding ICAPS exist that do not accurately reflect the overall audit
assessment of the system or the control risk assessments for the control
objectives. In addition, the quality assurance review results showed that in most
cases, the ICAPS adequately summarized the audit results, even when the audits
rated a system as adequate based on the contractor's pursuit of corrective
actions. However, the existence of any ICAP summary that is in effect with
inaccurate assessments is unacceptable to DCAA. To resolve this, DCAA plans
to issue an MRD by September 30, 2002, instructing the FAOs to review all
ICAPS for years still subject to audit to ensure the accuracy of the ICAPS
assessments for the overall system and the control objectives.




                                   24
       4. Determine which types of audit reports need to include fieldwork
dates to provide a time frame for when the report findings are applicable
and modify the standard report formats and the Defense Contract Audit
Agency Manual 7640.1, “DCAA Contract Audit Manual,” to reflect the
revised requirement.

Management Comments. DCAA concurred, stating that they will identify
which DCAA audit report types should include fieldwork dates and modify the
standard audit report formats by December 2002 to prompt the auditor to
include the fieldwork dates.

       5. Include a question on the checklist “Audit Report Quality Review
Sheet for Audit Reports of All Types” to verify whether the dates of
fieldwork are included in the scope section of audit reports, when
applicable.

Management Comments. DCAA nonconcurred, stating that, although DCAA
agreed that the usefulness and value of the impacted audit reports would be
improved by including the fieldwork date, the fieldwork date represented only
one of literally hundreds of specific reporting requirements potentially impacting
the 46 standard audit report formats that DCAA maintains. In addition, the
costs associated with implementing the Audit Report Checklist as a peer and
post-audit quality review tool prohibit having the checklist cover all but the most
important reporting requirements. Forty-seven requirements are currently
covered by the Audit Report Checklist. DCAA determined that fieldwork dates
on selected report types do not rise to the level of significance that warrants
adding an additional requirement to the Audit Report Checklist, especially
because DCAA is looking at opportunities to further streamline the Audit Report
Checklist and related processes. However, DCAA will communicate fieldwork
dating changes to selected report formats to all of the FAOs in an MRD that will
be issued in December 2002 with the quarterly update to the Audit Planning and
Performance System. In addition, during the second 3-year cycle of quality
assurance reviews, DCAA will follow up on FAO compliance with the
fieldwork dating requirement. Under current plans, the next quality assurance
review of internal control system audits will be completed by FY 2004.

Oversight Response. We disagree with the DCAA position as it relates to
internal control system audit reports. As stated in the draft report, CAM 10-407
already requires that the scope section of DCAA internal control system audit
reports include the period of performance of the audit fieldwork and has
included that requirement since 1996. In addition, the standard report formats
for internal control system audits have a prompt for the auditors to include the
fieldwork date. Therefore, issuing additional guidance when the auditors are
not adhering to long-standing policy may not be effective. Because the
requirement to include fieldwork dates in audit reports has existed for 6 years,
DCAA should develop some method that requires compliance with the
requirement before an audit report is issued. Including a question in the Audit
Report Checklist to verify whether the dates of fieldwork are included in the
scope section of audit reports would be one method. Although we recognize
that the method is not the only possible method, FAOs using the checklist as
part of the peer review process can ensure greater compliance with two of the



                                    25
five GAS reporting standards—timeliness and report presentation, specifically
accuracy. We request that DCAA reconsider its position and provide comments
to the final report.

       6. Standardize use of the working paper checklist throughout the
agency and integrate the working paper checklist into the peer review
quality control procedures.

Management Comments. DCAA concurred in principle, stating that they
developed the Working Paper Checklist, believed in the value of the checklist,
and wanted the checklist to be effectively implemented and efficiently used. In
addition, DCAA believed that the Working Paper Checklist has already been
widely integrated into peer review processes. However, DCAA pointed out that
the auditors have less than 12 months experience with the Working Paper
Checklist and additional data needs to be gathered on how the checklist is being
implemented. As part of the next 3-year cycle of quality assurance reviews,
DCAA plans to gather data on the use and effectiveness of the Working Paper
Checklist. DCAA stated that mandating a more costly, extensive, and less
flexible use of the Working Paper Checklist prior to the collection of more
meaningful data would not be prudent. However, should the data collected over
the next 9 months show that DCAA expectations are not being met or the
Working Paper Checklist is not working as planned, then DCAA would agree
that some additional action is warranted.

Oversight Response. The DCAA comments meet the intent of the
recommendation.




                                   26
Appendix A. Scope and Methodology

Scope
    An audit organization’s internal quality assurance program is an integral part of
    its overall management program. We based our review of the DCAA quality
    assurance program on the GAS standards relating to quality controls; the
    General Accounting Office GAO/OP-4.1.6, “An Audit Quality Control System:
    Essential Elements,” August 1993; the PCIE “Guide for Conducting External
    Quality Control Reviews of the Audit Operations of Offices of Inspector
    General,” April 1997; DCAA strategic plan goals and objectives; and DCAA
    policies and procedures in force from June 1992 through March 2002. We
    reviewed the status of the DCAA quality assurance program including
    improvements and enhancements that DCAA made as a result of IG DoD Report
    No. D-2002-6-001. In addition, we reviewed the FY 2000 DCAA quality
    assurance review of internal control system audits. Specifically, we reviewed
    the FAO and assignment selection process; the DCAA documentation files for
    all of the 18 FAOs visited; the 18 trip reports; and corrective actions that
    DCAA headquarters, the regions, and Field Detachment had completed or
    proposed. In addition, we visited four FAOs (the North West and Peninsula
    Branch Offices in California, the Denver Branch Office in Colorado, and the
    Great Lakes Branch Office Buffalo Suboffice in New York) to retest DCAA
    work and conclusions. Also, we discussed the quality assurance review process
    and the results of our review with DCAA officials to help us determine how
    much reliance we could place on the process when conducting our oversight
    review. Further, we reviewed briefing charts that the DCAA headquarters
    Quality Assurance Division presented to the ESC and meeting minutes and
    action items that resulted from ESC meetings and decisions relating to the
    DCAA quality assurance program and the internal quality assurance review of
    internal control system audits.

    IG DoD Oversight Responsibilities. Under section 8(c)(6), title 5, United
    States Code, Appendix 3, the Inspector General Act of 1978, as amended, the
    IG DoD is responsible for monitoring and evaluating adherence of DoD auditors
    to internal audit, contract audit, and internal review principles, policies, and
    procedures. The office within the IG DoD responsible for conducting
    independent oversight reviews of DCAA is the Office of the Assistant Inspector
    General for Auditing, Deputy Assistant Inspector General for Audit Policy and
    Oversight. As part of that responsibility, Audit Policy and Oversight evaluates
    the quality assurance reviews performed by the DCAA headquarters Quality
    Assurance Division and the RQAs. Audit Policy and Oversight uses the PCIE
    Guide as a tool when conducting oversight reviews of the quality assurance
    reviews.




                                       27
Methodology
    To evaluate the status of the DCAA quality assurance program, we reviewed
    DCAA policies and procedures and interviewed DCAA headquarters quality
    assurance staff to determine the procedures that have been established to conduct
    quality assurance reviews as well as the improvements and enhancements
    DCAA implemented as a result of IG DoD Report No. D-2002-6-001. To
    evaluate the results of the FY 2000 quality assurance review of internal control
    system audits, we reviewed the ESC briefing charts and meeting minutes, the
    trip reports, the completed DCAA Checklists, and supporting documentation to
    determine what significant deficiencies DCAA found and corrective actions
    DCAA proposed and/or completed. We retested the DCAA results by visiting
    4 (22.2 percent) of the 18 FAOs that DCAA visited and analyzing
    20 (23.8 percent) of the 84 assignments DCAA reviewed using the same DCAA
    Checklist that DCAA used when they conducted the quality assurance review.
    We then compared our results to the DCAA results, identified differences, and
    determined why the differences occurred.

    During our oversight review of forward pricing assignments addressed in
    IG DoD Report No. D-2002-6-001, we determined that DCAA maintained
    limited documentation to support answers on the DCAA Checklist because
    DCAA management determined that only exceptions needed supporting
    documentation or explanation. In addition, DCAA needed to improve the
    wording of checklist questions; better define the criteria for evaluating audit
    work; and provide more thorough guidance for assessing noncompliances,
    illegal acts, and other irregularities to completely evaluate certain auditing
    standards. However, we did not issue the draft report summarizing our
    oversight review until April 20, 2001. By that time, DCAA had already
    completed the quality assurance review of internal control system audits, briefed
    the ESC, issued the 18 trip reports, and initiated corrective action. Therefore,
    DCAA could not have incorporated any of our suggested revisions to the DCAA
    Checklist during the review of internal control system audits. As a result, we
    are not addressing issues related to specific DCAA Checklist questions or the
    criteria that DCAA used to evaluate the audit work. We plan to evaluate
    implementation of the DCAA Checklist and identification of the relevant
    guidance during our oversight review of the DCAA quality assurance review of
    incurred cost audits, which began in April 2002.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform the oversight review.

    Oversight Review Dates and Standards. We conducted this oversight review
    from May 2001 through April 2002 in accordance with standards issued by the
    IG DoD.

    Contacts During the Evaluation. We visited or contacted individuals and
    offices within DoD. Further details are available upon request.




                                       28
Prior Coverage

Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2002-6-005, “Defense Contract Audit Agency Regional
     Quality Assurance Review of the Incurred Cost Sampling Initiative,” April 16,
     2002

     IG DoD Report No. D-2002-6-001, “Defense Contract Audit Agency Quality
     Assurance Program,” December 6, 2001

     IG DoD Report No. D-2000-6-010, “External Quality Control Review of the
     Defense Contract Audit Agency,” September 27, 2000




                                       29
Appendix B. Structure of Defense Contract
            Audit Agency Quality Assurance
            Program and Quality Control
            System

Policies on Quality Control Systems and Quality Assurance
  Reviews
     GAS. The GAS are standards for audits that are performed on Government
     organizations, programs, activities, and functions. The standards also apply to
     audits of Government assistance that contractors, nonprofit organizations, and
     other non-Government organizations receive. GAS 3.31 requires that, “Each
     audit organization conducting audits in accordance with these standards should
     have an appropriate internal quality control system in place.” In addition, GAS
     requires that an organization’s internal quality control system provides
     reasonable assurance that the organization has adopted and follows applicable
     auditing standards and has established and follows adequate audit policies and
     procedures. GAS states that the nature and extent of an organization’s internal
     quality control system is dependent on factors such as size, the degree of
     operating autonomy among offices and personnel, the nature of the work,
     organizational structure, and appropriate cost/benefit considerations. Therefore,
     the internal quality control systems established by organizations will vary, as
     will the extent of the documentation.

     PCIE Guide. The PCIE Guide reiterates the guidance in GAS and provides
     additional guidance on the internal quality control system as well as guidance for
     conducting quality assurance reviews. The PCIE Guide states that an
     organization’s internal quality control policies and procedures encompass, at a
     minimum, the elements of staff qualifications, independence, audit performance,
     and internal review. In addition, the PCIE Guide outlines the characteristics of
     a quality assurance review. Also, the PCIE Guide includes a “Checklist for
     Assessment of Internal Quality Assurance Program [PCIE Appendix C],” which
     can be used as a tool to evaluate an organization’s quality assurance program.

     General Accounting Office Guide. The General Accounting Office
     GAO/OP-4.1.6, “An Audit Quality Control System: Essential Elements”
     (General Accounting Office Guide), August 1993, provides guidance that
     Federal organizations can use to design or improve their internal quality control
     systems. The General Accounting Office Guide states that a quality control
     system should define principles, policies, and procedures that will achieve the
     consistent quality of work that an organization expects. In addition, an
     appropriate quality control system identifies those factors that could jeopardize
     the quality of an audit and establishes processes or procedures that promptly
     identify and correct problems before they occur.




                                         30
DCAA Internal Quality Control System
    The DCAA internal quality control system is implemented at all levels of the
    organization and is multifunctional, covering elements of vulnerability
    assessment, internal control review, external audit followup,18 audit quality
    review, and management improvement efforts. Organizationally, DCAA is
    divided into a headquarters, 5 regions, Field Detachment, and 81 FAOs.
    DCAA considers all organizational layers to be part of its internal quality
    control system.

    DCAA-Wide Quality Control System. The DCAA-wide quality control
    system is defined in the CAM and in DCAA regulations and instructions.
    DCAA-wide quality controls include use of standard audit programs, standard
    audit report formats, and standard checklists for reviewing audit reports;
    fact-finding visits by DCAA headquarters program managers who use tools such
    as centrally directed surveys and internal checklists; headquarters desk reviews;
    onsite reviews of internal systems by DCAA specialists such as industrial
    engineers; and reviews by peers outside the organization being reviewed. In
    addition, the DCAA quality assurance program is an integral part of the quality
    control system.

    Regional and Field Detachment Quality Control Systems. Regional quality
    control systems implemented by the regional directors and managed by the
    RQAs, including the Field Detachment Quality Assurance Division, are an
    integral part of the DCAA-wide quality control system. Regional policies and
    procedures set forth quality controls that include delegation of authority;
    separation of duties; accountability of resources; recording, documenting, and
    resolving audit findings; pre-issuance reviews of sensitive or significant audit
    reports by regional audit managers; post-audit quality reviews by the regional
    audit manager; and monthly post-issuance review of audit reports. The RQAs
    also perform compliance reviews as requested by regional directors.

    FAO Quality Control System. Within each region, DCAA has between 10 and
    16 FAOs. The FAOs are responsible for implementing a sound quality control
    system based on headquarters and regional guidance. Peer review processes are
    an integral part of the FAO-level quality control system. FAO quality controls
    include mandatory pre-issuance review of audits by supervisory auditors and
    pre-issuance reviews of sensitive or significant audits by FAO managers. The
    results of peer reviews are used to identify process improvements within FAOs
    and are forwarded to the region and headquarters for identifying trends
    throughout DCAA. FAOs may institute other quality control procedures, such
    as participatory work teams and pre-issuance review of audit reports.




    18
     External audit followup includes following up on findings and recommendations in General
     Accounting Office and IG DoD reports.



                                             31
DCAA Quality Assurance Program
    MRD 98-P-147(R), “Establishment of Quality Assurance Division,”
    October 23, 1998, established a Quality Assurance Division at DCAA
    headquarters and in each of the five regions and Field Detachment. The
    headquarters, regional, and Field Detachment Quality Assurance Divisions are
    responsible for developing and executing an agency-wide program to provide
    reasonable assurance that DCAA has adopted and follows applicable auditing
    standards and has established and follows adequate auditing policies and
    procedures. Additional functions include assessing the need for new or revised
    guidance, supporting external quality control reviews, accompanying external
    auditors on field visits, serving on process action teams, assisting in responding
    to inquiries, and identifying “best-in-class” processes for use throughout
    DCAA.

    Executive Steering Committee. The ESC is responsible for providing overall
    management and direction for the DCAA total quality management program. In
    addition, the ESC is responsible for establishing the DCAA vision and strategic
    goals; identifying quality improvement projects; evaluating quality improvement
    projects suggested by others; approving or disapproving DCAA-wide process
    action teams; and maintaining active communication and coordination with the
    quality management boards regarding their process action team activities and
    recommendations. Committee members include the Director, Deputy Director,
    assistant directors of the headquarters components, directors of the five regions
    and Field Detachment, and General Counsel. The ESC meets quarterly and is
    briefed on issues such as the strategic plan, advanced degrees and certifications,
    procurement plans, and the DCAA quality assurance program. If necessary, the
    ESC establishes action items for tasks to be completed or information to be
    provided. The Executive Officer maintains a listing of action items for the
    Director, DCAA.

    Headquarters Quality Assurance Division. The DCAA headquarters Quality
    Assurance Division performs formal quality assurance reviews based on the
    PCIE Guide and other quality assurance-related reviews throughout DCAA.
    When conducting the reviews, the Quality Assurance Division assesses
    compliance with applicable auditing standards and audit policies and procedures,
    the need for enhanced or new audit policy guidance, and best practices for use
    throughout the agency.

    Regional Quality Assurance Divisions. The RQA, including Field
    Detachment, assists the DCAA headquarters Quality Assurance Division in
    performing quality assurance reviews and other quality assurance projects
    throughout the agency. At the direction of respective regional directors, the
    RQAs also perform regional quality assurance reviews and projects to assess
    compliance with applicable policies and procedures, the need for enhanced or
    new audit guidance, and best practices for regional use. In addition, the RQAs
    perform special reviews as required by the regional directors. When performing
    regional quality assurance reviews and special reviews, the RQA chiefs report
    directly to the directors of their respective regions. When performing




                                        32
    agency-wide reviews under the direction of the headquarters Quality Assurance
    Division, the RQA staff assigned to the review report indirectly to the chief of
    the headquarters Quality Assurance Division.

    DCAA Quality Assurance Reviews. Beginning in FY 1999, DCAA
    established a 3-year cycle for conducting quality assurance reviews. DCAA
    determined that its workload fell into four major categories—forward pricing
    assignments, internal control reviews, incurred cost audits, and all other
    audits.19 DCAA decided to conduct separate quality assurance reviews for each
    of the major audit categories. DCAA completed all of the reviews and briefed
    the ESC on the final review in June 2002.


DCAA Quality Assurance Program Review Process
    The PCIE Guide describes the characteristics that an organization’s quality
    assurance program should integrate into any review of its quality control
    system. Those characteristics include formal quality assurance review
    procedures, adequate staffing, independence, sufficient evidence, thorough
    scope of review, written results, written responses, and an effective followup
    process. In IG DoD Report No. D-2002-6-001, we discussed DCAA
    implementation of the characteristics during the DCAA quality assurance review
    of forward pricing assignments and determined that the DCAA methodology for
    preparing written results and written responses met the intent of the PCIE
    Guide. DCAA used the same methodology during the quality assurance review
    of internal control system audits; therefore, DCAA continues to meet the intent
    of the PCIE Guide. Our concerns about the DCAA followup process are
    addressed in finding A of this report. For the characteristics of formal quality
    assurance review procedures, staffing, independent review, evidence, and scope
    of headquarters-led quality assurance reviews; DCAA has either taken
    corrective action or plans to take corrective action to improve or enhance the
    characteristic.

    Formal Quality Assurance Review Procedures. DCAA completed three
    internal quality assurance reviews without preparing formal policies and
    procedures for conducting the reviews. DCAA needs to develop formal policies
    and procedures so that an external reviewer can evaluate the adequacy of the
    policies and procedures as part of the overall oversight review of the DCAA
    quality assurance program. DCAA planned to issue the instruction by
    September 30, 2001; however, DCAA revised the milestone date to
    February 28, 2002. In March 2002, DCAA revised the milestone date to
    May 30, 2002. In July 2002, DCAA again revised the milestone to
    September 30, 2002.

    Staffing. DCAA established the headquarters Quality Assurance Division
    primarily to develop and execute an agency-wide quality assurance program.


    19
     Examples include defective pricing audits, progress payment audits, operations audits, and
     termination audits.



                                              33
DCAA has subsequently added responsibilities, such as providing assistance in
preparing the DCAA FY 2000 financial statements. To ensure that the quality
assurance program reviews are accomplished during each 3-year cycle, DCAA
agreed to continue to monitor the work assigned to the headquarters Quality
Assurance Division.

Independent Review. The PCIE Guide recommends that the review team
leader report to an individual or a level within the organization that will ensure
independence and objectivity of the performance of quality assurance reviews.
However, when DCAA established the process for assigning auditors to the
quality assurance reviews, DCAA decided that the Field Detachment Quality
Assurance Division would conduct the quality assurance review of Field
Detachment audits. DCAA decided not to independently assess Field
Detachment because of workload, security considerations, and the fact that
DCAA considers the Field Detachment Quality Assurance Division independent
because it is separate from Field Detachment audit operations. However, the
Field Detachment quality assurance staff is located at Field Detachment FAOs in
California, Texas, and Massachusetts. The quality assurance staff is not
physically separate from Field Detachment audit operations. In response to
IG DoD Report No. D-2002-6-001, DCAA modified the process by requiring
the Deputy Director, DCAA to select Field Detachment FAOs for review,
review and sign draft and final trip reports, and review working papers if
necessary. However, the Field Detachment Quality Assurance Division staff is
still performing the fieldwork and writing the trip reports. While involving the
Deputy Director, DCAA in the review of Field Detachment FAOs does not
result in complete independence, the process is a reasonable compromise that
meets the intent of the recommendation in IG DoD Report No. D-2002-6-001,
given the nature of Field Detachment work.

Evidence. The PCIE Guide recommends that competent evidential matter be
gathered and, where applicable, sufficient testing is accomplished to determine
whether the organization is in compliance with applicable auditing standards,
policies, and procedures. DCAA developed an understandable, methodical
process for selecting which FAOs and internal control system audit assignments
to review. DCAA documented the results of the quality assurance review of
internal control systems audits by completing a DCAA Checklist for each of the
84 audits reviewed, preparing exit conference notes, and writing a trip report
summarizing the results of the review for each of the 18 FAOs visited. DCAA
gathered what it considered sufficient evidence to evaluate whether its auditors
were complying with applicable auditing policies and procedures. However,
because of concerns raised in IG DoD Report No. D-2002-6-001 regarding the
lack of sufficient documentation and inadequate cross-referencing of trip
reports, we retested 4 (22.2 percent) of the 18 FAOs and 20 (23.8 percent) of
the 84 internal control system audits to determine whether the two conditions
had improved. As previously stated, DCAA completed the quality assurance
review of internal control system audits and briefed the ESC in September 2000
before we issued IG DoD Report No. D-2002-6-001 in December 2001;
therefore, DCAA could not have implemented any of the recommendations
during the review of internal control system audits. However, DCAA took
action to implement the recommendations related to documentation and
cross-referencing trip reports once IG DoD Report No. D-2002-6-001 was
issued.


                                    34
       Documentation Supporting the DCAA Checklists. The DCAA quality
assurance staff improved their documentation of the work performed and the
conclusions reached during the review. In response to IG DoD, Report
No. D-2002-6-001, DCAA modified the DCAA Checklist20 that is being used
during the quality assurance review of all other audits. Specifically, DCAA:

     •   added question 5.3.b, which requires the DCAA reviewer to determine
         whether any auditor in the FAO documented the reliability of
         computer-based date if the auditor performing the audit under review
         had not;

     •   modified question 6.1 and renumbered it as 6.1.a, which requires the
         DCAA reviewer to determine whether the auditor documented his
         understanding of the contractor’s internal controls; and,

     •   added question 6.1.b, which requires the DCAA reviewer to determine
         whether any auditor in the FAO documented an understanding of the
         contractor’s internal controls on an ICAPS, and Internal Control
         Questionnaire, or some other procedure if the auditor performing the
         audit under review had not.

In addition, DCAA is considering whether to break up question 4.2 on
supervision into three questions to more accurately assess supervisory
involvement during an audit. Also, our review of DCAA Checklists prepared at
two pilot sites indicated that DCAA is providing more detailed documentation
for each answer on the DCAA Checklist. Specifically, the DCAA reviewers are
providing either an explanation or a working paper reference and sometimes
both for each “yes” and “no” answer and, when necessary, the DCAA
reviewers are providing explanations for some of the “not applicable” answers.

        Cross-Referencing the Quality Assurance Review Reports. The
DCAA quality assurance staff improved the cross-referencing of the trip reports
to the supporting quality assurance documentation because of the improvement
in documenting the answers to the DCAA Checklist questions. DCAA wrote a
trip report for each of the 18 reviewed FAOs. The trip reports summarize the
major findings of the quality assurance reviews at the FAOs and include an
enclosure that summarizes the DCAA Checklist answers by reviewed
assignment. Each trip report identifies the internal control system audit being
discussed and the DCAA Checklist question identifying the noncompliance.
Because of the changes that DCAA made to the DCAA Checklist questions and
because the DCAA reviewers are providing explanations and working paper
references as support for their answers, we have a clear audit trail from the trip
reports to the DCAA Checklist answers to the auditor working papers.

Scope of Headquarters-Led Quality Assurance Reviews. In IG DoD Report
No. D-2002-6-001, we raised concerns about the scope of the DCAA
headquarters-led quality assurance reviews related to the review of FAOs,


20
 DCAA considers the DCAA Checklist to be a living document; therefore, changes are made as
 needed.



                                        35
assessment of due professional care, review of qualifications and independence,
and assessment of the DCAA quality control system. DCAA took corrective
action or has initiated corrective action to improve the characteristics.

        Review of FAOs. All FAOs issue audit reports; however, DCAA never
planned to ensure the review of every FAO in a given 3-year cycle or planned to
include the two overseas FAOs21 in the headquarters-led quality assurance
reviews. DCAA notified us on March 30, 2001, that they would begin to
include both overseas FAOs in the universe of offices to be potentially selected
for future reviews. DCAA stated that, under the DCAA methodology for
conducting the PCIE-based reviews and given the DCAA revised position
relating to its two overseas offices, every FAO will likely be covered during the
first and subsequent review cycles.

        Assessment of Due Professional Care. The question on the DCAA
Checklists that DCAA used for the internal quality assurance reviews of forward
pricing assignments and internal control system audits did not adequately
address compliance with due professional care. DCAA took corrective action
by modifying the March 12, 2001, version of the DCAA Checklist used during
the internal quality assurance review of incurred cost audits to include the
question, “Did the auditors exercise due professional care in performing the
audit?” to be used to assess compliance with due professional care.

        Qualifications and Independence. The quality assurance review
process that DCAA initially developed included plans to review compliance with
the general standards of qualifications and independence. The plans did not
include testing at the FAO level. Subsequent to the start of the 3-year cycle,
DCAA decided to postpone its review of qualifications—specifically continuing
professional education—until FY 2002 because DCAA was in the process of
revising guidance on continuing professional education requirements. DCAA
completed the review of qualifications and independence and briefed the ESC in
June 2002.

        DCAA Quality Control System. The DCAA quality assurance reviews
of internal control system audits did not fully consider regional and FAO quality
control policies and procedures. To fully assess the adequacy of the DCAA
quality control system as described in CAM, DCAA should have tested
compliance with policies and procedures issued by the regions and the FAOs in
addition to DCAA-wide policies and procedures. However, when completing
the DCAA Checklist, the reviewers did not indicate that they considered
anything other than DCAA-wide quality control policies and procedures.
DCAA took corrective action by adding the question, “Were the quality control
procedures, forms, and checklists required by Regional/FAO policy
appropriately completed/complied with?” to the January 2001 version of the
DCAA Checklist used to review incurred cost audits, the third of four types of
audits that DCAA is including in the quality assurance reviews.



21
 The European Branch Office is in Germany with suboffices in Saudi Arabia and Israel. The
 Pacific Branch Office is in Japan with suboffices in Hawaii and Korea.



                                         36
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Other Defense Organization
Director, Defense Contract Audit Agency




                                          37
Defense Contract Audit Agency
Comments




                  39
Final Report
 Reference




Page 4
Revised




Pages 4-5
Revised




               40
     Final Report
      Reference




     Page 12




     Page 12
     Pages 22-23




41
42
43
Final Report
 Reference




Pages 18-19




               44
45
Team Members
The Audit Policy and Oversight Directorate, Office of the Assistant Inspector General
for Auditing, DoD, prepared this report. Personnel of the Office of the Inspector
General, DoD, who contributed to the report are listed below.


Wayne C. Berry
Diane H. Stetler
Catherine M. Schneiter
Edward M. Van Why
Lois J. Wozniak
Sharon Carvalho
Krista Gordon
Ashley Harris
